CERTIFICATE OF SERVICE
I, Toni Sharretts Collins, pro-se and a member of the Bar of this Court hereby certify
that on the 24th day of February, 2020, a copy of this Application for Extension of
Time to File a Petition for Writ of Certiorari in the above-entitled case was mailed,
first class postage prepaid, to Jay Wright, 204 W. Davis, Suite A, Conroe, TX
77301, counsel for the respondent herein. I further certify that all parties required to
be served have been served.

s/Toni L. Sharretts Collins
TONI L. SHARRETTS COLLINS

4

